.. . ±

APPENDIX

SUPREME court

JAN 2 9 2020
Jorge Navarrete Clerk
S258645

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

In re ROBERT JAMES OSSAWA WOOD on Habeas Corpus.

The petition for writ of habeas corpus is denied. (See In re Robbins (1998) 18
Cal.4th 770, 780 [courts will not entertain habeas corpus claims that are untimely]; In re
Clark (1993) 5 Cal.4th 750, 767-769 [courts will not entertain habeas corpus claims that
are successive].) Individual claims are denied, as applicable: (See In re Lessard (1965)
62 Cal.2d 497, 503 [courts will not entertain habeas corpus claims that raise Fourth
Amendment violations]; In re Dixon (1953) 41 Cal.2d 756, 759 [courts will not entertain
habeas corpus claims that could have been, but were not, raised on appeal]; In re Miller
(1941) 17 Cal.2d 734, 735 [courts will not entertain habeas corpus claims that are
repetitive].)

CANTIL-SAKAUYE
ChiefJustice

Additional material
from this filing is
available in the
Clerk's Office.

